                                                                      Office               Hotline

  Office of Inspector General                                         202.692.2900
                                                                      peacecorps.gov/OIG
                                                                      OIG Reports
                                                                                           202.692.2915 ‫ ׀‬800.233.5874
                                                                                           Online Reporting Tool
                                                                                           OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Director
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          June 13, 2014

Subject:       Final Report on the Program Evaluation of Peace Corps/Mexico
               IG-14-04-E

Transmitted for your information is our final report on the Program Evaluation of Peace
Corps/Mexico.

Management concurred with all five recommendations. All five recommendations remain open
pending confirmation from the chief compliance officer that the documentation identified in
management’s response has been received. In its response, management described actions it is
taking or intends to take to address the issues that prompted each of our recommendations. We
wish to note that in closing recommendations, we are not certifying that the agency has taken
these actions or that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities.

Our comments, which are in the report as Appendix E, address these matters. Please respond
with documentation to close the remaining open recommendation within 90 days of receipt of
this memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Evaluation Jim O’Keefe at 202.692.2904 or to Senior Evaluator Jerry Black at 202.692.2912.

Please accept our thanks for your cooperation and assistance in our review.

cc:     Stacy Rhodes, Chief of Staff/Chief of Operations
        Jacklyn Dao, White House Liaison
        Bill Rubin, General Counsel
        Carlos Torres, Associate Director, Global Operations
        Helen Lowman, Associate Director, Office of Volunteer Recruitment and Selection
        Nina Favor, Acting Regional Director, Inter-America and the Pacific Operations
        Daniel Evans, Country Director, Peace Corps/Mexico
        Heather Zissler, Director of Programming and Training, Peace Corps/Mexico
        Malena Vazquez, Safety and Security Coordinator, Peace Corps/Mexico
        Brian Riley, Chief of Operations, Inter-America and the Pacific Operations
        Amy Johnson, Chief of Program and Training, Inter-America and the Pacific Operations
        Patricia Barkle, Deputy Chief Compliance Officer
        Mexico Country Desk
Peace Corps
Office of Inspector General




 PC/Mexico Environment Volunteer Rebecca Roberts with friend




                       Flag of Mexico



Final Program Evaluation Report:
       Peace Corps/Mexico
           IG-14-04-E
                                                      June 2014
                                      EXECUTIVE SUMMARY
BACKGROUND
More than 250 Peace Corps Volunteers have served the people of Mexico since the program was
first launched in 2003. There are two project sectors in Mexico: technology transfer for
economic development (tech transfer), and environmental awareness and resource management
to address climate change (environment). Peace Corps/Mexico’s (hereafter “the post”) fiscal year
(FY) 2013 budget was 1.9 million. 1 At the time of the evaluation, the post had 23 permanent staff
positions, 53 Volunteers (including seven Peace Corps Response Volunteers2), and 18 trainees
completing their pre-service training (PST) prior to taking the oath to serve as Volunteers.

WHAT WE FOUND
The Peace Corps operates in Mexico pursuant to agreements with Mexico’s National Council on
Science and Technology (CONACYT) and the country’s Ministry of Environment and Natural
Resources (SEMARNAT). The agency has not signed a bilateral country agreement with the
government of Mexico, though several attempts have been made to secure one. Mexico is the
only Peace Corps country with which the agency has not signed a bilateral country agreement.
The lack of a country agreement has limited the Peace Corps’ ability to develop new
programming areas, partners, and Volunteer sites in areas of need throughout Mexico.

Volunteers have served safely in Mexico since the program started even as areas of the country
have been increasingly affected by drug-related violence. The Peace Corps has adhered to state-
by-state travel restrictions for U.S. citizens recommended by the U.S. Embassy’s security
personnel in Mexico, placing Volunteers in states with few travel warnings. In general, the post’s
safety and security program functioned well, but Volunteer site locator forms did not always
contain accurate or complete information.

Program managers closely engaged and coordinated with host agencies CONACYT and
SEMARNAT in the selection of Volunteers. While the overall technical qualifications and
professionalism of Volunteers in Mexico were very high, many Volunteers did not speak or
understand Spanish at a reasonable level of proficiency, and the post had provided inconsistent
support for on-going Spanish language learning needs. Leadership at the post engaged
Volunteers in multiple ways to identify and address challenges, in particular through an effective
Volunteer Advisory Committee (VAC). Medical and administrative supports were functioning
well.

The tech transfer project did not focus on meeting the needs of people in poor areas of the
country, as the Peace Corps Act specifies. In addition, tech transfer Volunteers were not
receiving responses or feedback on their work reports. Environment Volunteers were not placed
in areas of need identified by SEMARNAT. Further, the post lacked timely and useful


1
  This amount does not include the salaries, benefits, and related cost of U.S. direct hires assigned to post and other
costs the agency has determined should be centrally-budgeted.
2
  Peace Corps Response provides qualified professionals the opportunity to undertake short-term assignments in
various programs around the world.


Final Program Evaluation Report: Peace Corps/Mexico                                                                       i
information about the academic interests and needs of Volunteers in the Masters International
program.

Some issues that affected Volunteers and staff were driven by agency-wide policy changes, or
decisions and initiatives coming from headquarters. Volunteers were frustrated with changes to
the agency’s AfterCorps health program. Staff at post reported that recent initiatives, guidelines
and expectations generated by various offices at Peace Corps’ headquarters had created a
workload that was stressful and difficult to complete.

RECOMMENDATIONS IN BRIEF
Our report contains five recommendations, which, if implemented, should strengthen post
operations and correct the deficiencies detailed in the accompanying report.




Final Program Evaluation Report: Peace Corps/Mexico                                                  ii
                                                        TABLE OF CONTENTS

EXECUTIVE SUMMARY ......................................................................................................................... i

HOST COUNTRY BACKGROUND .......................................................................................................... 1

P EACE CORPS PROGRAM BACKGROUND ........................................................................................... 2

EVALUATION RESULTS ........................................................................................................................ 3
          P ROGRAMMING ..................................................................................................................................................... 3

          TRAINING ............................................................................................................................................................... 9

          VOLUNTEER SUPPORT ........................................................................................................................................ 13

          MANAGEMENT CONTROLS ................................................................................................................................ 19


OTHER AREAS OF CONCERN ............................................................................................................. 20

LIST OF RECOMMENDATIONS ........................................................................................................... 23

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY............................................................... 24

APPENDIX B: INTERVIEWS CONDUCTED.......................................................................................... 25

APPENDIX C: L IST OF A CRONYMS ................................................................................................... 28

APPENDIX D: AGENCY’S RESPONSE TO THE PRELIMINARY REPORT ........................................... 29

APPENDIX E: OIG COMMENTS ......................................................................................................... 36

APPENDIX F: PROGRAM EVALUATION COMPLETION AND OIG CONTACT ................................. 37
                           HOST COUNTRY BACKGROUND
The United Mexican States shares a border with the United States to the north; Guatemala,
Belize, and the Caribbean Sea to the southeast; and the Pacific Ocean to the southwest. After
being colonized by Spain for three centuries, Mexico declared its independence in 1810. In 1821,
following a decade-long Mexican War of Independence, Spain formally recognized Mexico’s
independence.

Mexico’s GDP is $1.79 trillion. The economy is primarily driven by oil and gas production,
which generates more than 70 percent of the country’s revenue. Other sectors include tourism,
industrial production, textiles and clothing, and agriculture. The United States is Mexico’s
primary trading partner. In 2012, the United States supplied 49.9 percent of Mexico’s foreign
imports and purchased 78 percent of its exports. Many Mexican families receive remittances
from millions of Mexicans working in the United States.

According to the 2013 United Nations’ Human Development report, Mexico ranks among
countries in the “high human development” category, 61 out of 187 countries. 3 Among 65 active
Peace Corps countries, only Panama (59) and Palau (52) rank above Mexico in terms of the
human development index. Poverty in Mexico is nevertheless widespread, particularly in
southern states of the country. In 2010, an estimated 52 million people lived in poverty,
including 11.7 million (10.4 percent of its population) in extreme poverty. Adjusted for the
effects of its income inequality, Mexico would fall from the “high” to the “medium” human
development category.

In the 1980s, as the Colombian government began to crack down on drug trafficking in
Colombia, drug trafficking and associated security problems became worse in Mexico. In 2006,
Mexico’s new President, Felipe Calderón, declared war on the drug cartels, and the country fell
into an increasingly violent and costly drug war. Analysts estimate that since 2006 drug cartel
related violence in Mexico has led to 60,000 homicides. In 2012, Enrique Peña Nieto was elected
president after promising to end the violence by focusing on public safety.

Volunteers have served safely in Mexico since 2004, throughout these years of increasing drug-
related violence. The Peace Corps has adhered to state-by-state travel restrictions for U.S.
citizens recommended by the U.S. Embassy’s security personnel in Mexico. Volunteers in
Mexico have been placed in states that the U.S. Embassy has indicated are safe for travel by U.S.
citizens. The map below shows travel advisories issued by the U.S. Embassy in Mexico, and
general placement of Volunteers.




3
  “The Human Development Report” publishes an annual Human Development Index (HDI). The HDI provides a
composite measure of three basic dimensions of human development: health, education and income. Countries are
ranked from “very high human development” to “low human development” based on related data.

Final Program Evaluation Report: Peace Corps/Mexico                                                             1
              Figure 1. Travel Advisories and Volunteer Placement in Mexico


                                                                                States with
                                                                                Peace Corps
                                                                                Volunteers
                                                                                in Mexico




                                                                               PC Office in
                                                                               Queretaro




                 PEACE CORPS PROGRAM BACKGROUND
The Peace Corps opened its program in Mexico in 2003 at the request of CONACYT. Almost
120 Volunteers have since supported many of CONACYT’s science and technology research
centers, building local capacity in the areas of technology transfer, business and organizational
development, engineering, and research and development. CONACYT Volunteers have also
taught English and technical writing to their Mexican counterparts. In 2006, the Peace Corps
signed a second agreement with SEMARNAT, which has allowed more than 130 Volunteers
thus far to contribute to SEMARNAT’s environment and natural resource management programs
in central Mexico. The Peace Corps operates in Mexico pursuant to its two agreements with
CONACYT and SEMARNAT. However, the agency has not signed a bilateral country
agreement with the government of Mexico, despite several attempts to secure one. Mexico is the
only country where the Peace Corps does not operate on the basis of a bilateral country
agreement. This has created constraints which are discussed under Evaluation Results below.

Approximately 250 Volunteers, including 18 Peace Corps Response Volunteers (PCRVs), have
served in Mexico since the program began. At the beginning of this evaluation 53 Volunteers,
including seven PCRVs, were serving in Mexico. A group of 18 trainees were in PST and swore-
in formally as Volunteers during our field work in Mexico.

A more detailed explanation of the two project sectors are discussed below:




Final Program Evaluation Report: Peace Corps/Mexico                                            2
     Tech Transfer
    Volunteers in the tech transfer project carry out cooperative activities, requested by
    CONACYT, that support its science and technology research centers and affiliated
    institutions and universities. The goals of the tech transfer project are to promote and
    facilitate technology transfer, to strengthen business and organizational development, and to
    strengthen the scientific and technical capabilities of Mexican researchers and students.
    Volunteers work with their Mexican counterparts to promote technology transfer ideas and
    practices, to identify technologies with market potential, and to improve English language
    and teaching skills within CONACYT centers and affiliated universities.

     Environment
    Volunteers in the environment project collaborate with and provide technical assistance to
    SEMARNAT’s offices and protected areas in central Mexico. Volunteers are placed with
    SEMARNAT state offices, local municipalities, or in rural communities near protected areas.
    Environment Volunteers include natural resource management specialists, specialists in
    geographic information systems (GIS), and Volunteers with expertise in the management of
    protected areas, parks, forests and watersheds, biodiversity conservation, and environmental
    education. Environment Volunteers also promote sustainable technologies like fuel-efficient
    stoves and solar ovens.

This is the first evaluation of the post that the Office of Inspector General (OIG) has conducted.
The post’s FY 2013 budget was 1.9 million.4 At the time of the evaluation the post had 23
permanent staff positions.



                                      EVALUATION RESULTS
PROGRAMMING

The evaluation assessed the extent to which the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical needs.
To determine this, we analyzed the following:

        the coordination between the Peace Corps and the host country in determining
         development priorities and Peace Corps program areas;
        whether post is meeting its project objectives;
        counterpart selection and quality of counterpart relationships with Volunteers;
        site development policies and practices.

In reviewing counterpart relationships, project plans, and small grants management, we found no
significant areas of concern that would necessitate action by the post. In reviewing site
development and Volunteer placement, we found that some action is required.

4
 This amount does not include the salaries, benefits, and related cost of U.S. direct hires assigned to post and other
costs the agency has determined should be centrally-budgeted.

Final Program Evaluation Report: Peace Corps/Mexico                                                                      3
Counterpart Selection and Relationships with Volunteers. During field work we interviewed
Volunteers about their counterpart relationships. We also had an opportunity to meet
counterparts and conduct one-on-one interviews with three of them. Of the 20 Volunteers we
interviewed, all but one had at least one primary counterpart to work with. Eight Volunteers
reported that their working relationship with their primary counterpart was either good or very
good:

         “He is polite and kind, but he also does not beat around the bush much, and he asks for results. He has
        ideas and wants results.”

        “It is really good actually. I feel comfortable talking to him about things. He has been really supportive of
        me.”

Also, a few counterparts requested interviews with us and related their positive impressions of
the Volunteers they had collaborated with:
        “I have good things to say about Peace Corps. I have made two very close friends from the Volunteers who
        worked with me. They really came to help, and cared a lot and they added a lot of value. Almost all of them
        have been great. They all came and did their work with the [CONACYT] center and they also were
        engaged in secondary activities, too, so that they could get out of the center and do something that was
        more…that was proactive and social.”

Some Volunteers had experienced counterpart turnover that complicated their efforts to establish
effective working relationships with their counterparts. Volunteers and ministry officials
explained to us that the recent high counterpart turnover was driven by politics, as counterparts
were transferred, fired, or replaced after recent elections. High counterpart turnover was not
within the control of the Peace Corps, nor likely to recur frequently as a problem for Volunteers.

Project Plans. Both the tech transfer and environment project frameworks had recently been
revised and endorsed. Volunteers we interviewed conveyed a strong understanding of the goals
and objectives of their primary assignments: 17 Volunteers understood the goals of their project
well or very well, and 13 Volunteers responded that they believed they were able to accomplish
the goals of their project “well” or “very well.”

Small Grants Management.5 Volunteers we interviewed who were managing projects funded
through the Small Project Assistance (SPA) program reported that their SPA projects were
progressing well. We reviewed the post’s management of its small grants program and had no
concerns. The post had experienced a staffing gap in its grants coordinator position and in
response had relied on a third year Volunteer leader as its grants coordinator while it searched for
a permanent local hire for the position. Volunteers expressed appreciation for the support the


5
 The agency’s small grants program includes five types of grants and funding sources: Small Project Assistance
(SPA), Peace Corps Partnership Program (PCPP), Volunteer Activities Support and Training (VAST), Feed the
Future (FTF), and Energy Climate Partnership of the Americas (ECPA). Small grants projects Volunteers manage
should be designed to facilitate sustainable grassroots development by building local capacity.



Final Program Evaluation Report: Peace Corps/Mexico                                                                     4
Peace Corps Volunteer leader (PCVL) and other staff provided in reviewing and approving grant
applications, work plans, and reports.

Volunteer Selection and Site Development. Volunteer selection and placement in Mexico is
driven by requirements in the agreements between the Peace Corps, SEMARNAT and
CONACYT. Before the Peace Corps can formally invite an applicant whom it has recruited for
potential service in Mexico, SEMARNAT and CONACYT must approve the applicant’s
qualifications in relationship to particular sites that want a Volunteer. Peace Corps’ staff in
Mexico must therefore focus on ‘matchmaking’ between SEMARNAT and CONACYT sites and
applicant profiles. Once staff has facilitated the match of an applicant to a particular site, formal
invitations to serve are sent to the applicant, and SEMARNAT and CONACYT begin to process
visas for each applicant. Because each visa is specific to a particular site and applicant, the result
of this unique selection and placement process is that Volunteers in Mexico have been assigned
to sites before they arrive in country for pre-service training. 6

Sixteen of 20 Volunteers responded that they were either “satisfied” or “very satisfied” with their
site. Seventeen Volunteers said they had enough work to do either “most of the time” or
“always.” No Volunteer we interviewed had requested a site change for security reasons.
Volunteer files contained correspondence that documented the involvement of CONACYT and
SEMARNAT officials in the approval of specific Volunteer site assignments and scopes of work,
as required under the agreements with both agencies.

The evaluation uncovered some areas that require management attention. Volunteers were not
engaged in meeting the basic needs of people in the poorest areas of Mexico.

Tech transfer Volunteers were insufficiently engaged in meeting the basic needs of people in
poor areas of Mexico.

According to the Peace Corps Act, Congress intended the Peace Corps to send Volunteers to help
countries “particularly in meeting the basic needs of those living in the poorest areas…”

           Congressional declaration of purpose (a) The Congress of the United States declares that
           it is the policy of the United States and the purpose of this chapter to promote world
           peace and friendship through a Peace Corps…to help the peoples of such countries and
           areas in meeting their needs for trained manpower, particularly in meeting the basic.
           needs of those living in the poorest areas of such countries [emphasis added], and to
           help promote a better understanding of the American people….

The focus of primary activities of tech transfer Volunteers did not relate to the
basic needs of Mexicans in poor areas of the country. Tech transfer Volunteers
worked in well-resourced research centers staffed with highly educated Mexicans.

           “We can only work with CONACYT centers, so the people we work with are well
           educated. I think all of them have been to the United States at some point, and they are
           experts in their field. They don’t need my expertise…And they are probably more
           worldly than I am.”


6
    In most Peace Corps posts, a Volunteer’s site placement is determined several weeks into PST.

Final Program Evaluation Report: Peace Corps/Mexico                                                   5
       “In our center, it is pretty high tech. We actually have to scan our fingerprints when we come and go.”

Figure 2. Computer servers at a CONACYT center                  Figure 3. Conference room at technical university




CONACYT is a network of research centers throughout Mexico with a broad range of scientific
and technical focus areas. Its mission and vision statements refer generally to the idea of
promoting the welfare of society through knowledge. The work CONACYT had approved as
primary assignments for tech transfer Volunteers did not relate to basic needs of Mexicans, but
rather to product-related needs of particular industries and business sectors in Mexico, as well as
to indirect job-creation that might result from the technology transfer efforts at CONACYT
centers.
       “It depends on how you classify basic needs. But I mean it’s like, a basic need for the dairy industry. I
       think they [CONACYT researchers] are going to patent and market the vaccine. It’s not like they are doing
       it for the Mexican people.”

       “I think we are assisting the country at a different level, and that is a level that the country needs. That is
       want the government wanted….We work with people that are really well educated, but that is the state
       where we are…This effort is fundamental for Mexico and also the United States. If we create more jobs,
       people will stay in Mexico and we can be more productive and better partners for the United States.”

Some tech transfer Volunteers had developed secondary activities they could engage in on a
limited basis, like community health outreach, or working with orphans--activities Volunteers
undertake worldwide to help poor communities meet their basic needs. However, Volunteers and
staff acknowledged that the full-time nature of most primary assignments left little time for
Volunteers to develop secondary activities.

       It’s an eight-to-five job for Volunteers here. The only way they really get involved in basic needs is through
       a secondary community project but it has to be after hours or on weekends.

The agreements between the Peace Corps and CONACYT and SEMARNAT provide that
CONACYT and SEMARNAT decide which Volunteers are invited to serve in Mexico, and
which jobs they will fulfill. Staff expressed that the effect of the agreement is that the host
agencies indicated which sites want a Volunteer, and then the Peace Corps tried to find and
match a qualified Volunteer to the particular job. The Volunteer selection and placement process



Final Program Evaluation Report: Peace Corps/Mexico                                                                      6
occurred in a way that did not provide scope for the Peace Corps to consider the basic needs of
Mexicans in poor areas as part of its site development process.

       The HCN [host country national] agencies decide where they will work and with whom. So for instance,
       the counterparts say we really want this specialist at X center, and [the program managers] then follow up.
       Our program managers work with the on-the-ground sites after agencies have already said where they want
       them.

Another factor that has diminished the agency’s ability to develop sites in new geographic or
programmatic areas has been the lack of a bilateral country agreement. Negotiations in 2010 and
again in 2013 between Peace Corps and the Mexican government to execute a country agreement
similar to the agreements that provide the basis for Peace Corps’ operations in other countries
were unsuccessful. According to agency officials we spoke to, Peace Corps decided it could not
agree to the terms of the most recent agreement that had been proposed by the Mexican
government. In short, the proposed agreement would have considered the post to be part of the
diplomatic mission of the US embassy, a decision that would have run counter to the agency’s
history since 1961 of remaining formally separate from the US embassy’s official diplomatic and
foreign policy institutions. There is little optimism among agency personnel we spoke to
concerning the prospect of securing a bilateral country agreement at this point: “There is just not
much of a resolution on the horizon here. If there were a middle ground it would have been
found.” The lack of a country agreement means that the Peace Corps does not have the flexibility
to pursue opportunities unrelated to either of its two agency-specific agreements with
CONACYT and SEMARNAT:

       It limits us. We can’t consider working outside of these areas without a bilateral agreement.

In addition to the provisions in the agency’s agreement with CONACYT, the post has been
constrained in placing Volunteers in geographic areas of greater need due to two factors: the
higher cost of supporting Volunteers farther from its office in Queretaro, and a more limited
presence of CONACYT centers in states that are both high in poverty and safe enough for
Volunteer placement.
       We are also very limited in terms of where we can work and who we can work with. The central area where
       we have our Volunteers is as big as all of Central America, but because of the limited number of partners
       and the MOUs, it’s not really all available to us.

Officials we spoke with from SEMARNAT and its sub-agencies expressed disappointment with
the location of environment Volunteers in relationship to areas of high need in Mexico.

       “I know that Chiapas and Oaxaca are green and you could put Volunteers there. This is an area of need for
       us. I think the Peace Corps should consider giving a few Volunteers the opportunity to work down there.”
       “The location of Volunteers is not great right now. It’s too centralized. Since 2006 we have not had a
       Volunteer down there.”

       “One of the main obstacles is the location of Volunteers. I get the reasons. I understand the security
       concerns and limits the U.S. government has placed on the Peace Corps, I do. But at the same time I would
       like to see Volunteers in the south more. That’s really where the need is in Mexico and I think it’s a place
       where the Peace Corps could have a very significant impact at the local level in the south of Mexico.”




Final Program Evaluation Report: Peace Corps/Mexico                                                                7
CONACYT and SEMARNAT have some centers and offices in “green” areas of Mexico with
higher levels of need, including Oaxaca and Chiapas.

Figure 4. Travel Advisories and Mexican States without Volunteers




                                                                                        Peace Corps
                                                                                        office in
                                                                                        Queretaro

                                                                                        “Green” states
                                                                                        without Peace
                                                                                        Corps Volunteers



                                                   Oaxaca    Chiapas




Figure 5. Percentage of state population in poverty, 20127




Some Volunteers in both projects reported to us that they believed they were either taking jobs
that qualified Mexicans could be hired to do, or reducing the need within their office or center to
find and pay for a qualified Mexican to do the same work.

7
  http://en.wikipedia.org/wiki/List_of_Mexican_states_by_poverty_rate#cite_note-1. Also, Mexico’s National
Commission of Evaluation of Social Development Policy (CONEVAL):
(http://web.coneval.gob.mx/Medicion/Paginas/Medici%C3%B3n/Pobreza%202012/Pobreza-2012.aspx)


Final Program Evaluation Report: Peace Corps/Mexico                                                          8
       “They have been relying on Volunteers for I don't know how many years now and if they hadn't had a
       Volunteer would they have hired someone to do this? Maybe, but maybe not. If they had never had us
       maybe they would have been forced to hire someone…I don't know if I'm directly taking someone's job
       away but maybe they would have had to hire someone.”

       “I run into…Mexicans who can do my job, and in fact my counterpart who had been there a year before I
       got there slowly got pushed down and then he quit. He got kind of pushed out because I was there and
       could do it.”

       “I don’t know if he took someone’s job. He kind of just kept them from hiring someone.”

The post had attempted to place and support Volunteers in more southern states of Mexico in the
past, but was unable to sufficiently support Volunteers at this distance from the main office in
Queretaro. Post staff we spoke to about this issue was receptive to the idea of placing more
Volunteers in areas of greater need within southern Mexico, but mentioned that additional
resources would be required to support those Volunteers.


               We recommend:

                    1. That the country director develop a plan for placing
                       and supporting tech transfer and environment
                       Volunteers in areas of greater need within Mexico.


TRAINING

Another objective of the post evaluation is to answer the question, “Does training prepare
Volunteers for Peace Corps service?” To answer this question we considered such factors as
training adequacy and planning and development of the training life cycle.

In reviewing the post’s documentation of its training program, including its methods for
assessing each trainee’s learning progress during PST, its processes for evaluating and improving
training based on feedback from training participants, and the adequacy of resources to support
the post’s training program, we found no significant areas of concern that would necessitate
action by the post. In reviewing the Spanish language abilities and on-going language learning
needs of Volunteers, we found that some action is required.

Assessment of Trainees’ Achievement of Learning Objectives. The post tracks the status of
all trainees’ achievement of each learning objective during PST, including agency-wide learning
objectives that all Volunteers are expected to achieve, as well as learning objectives specific to
Mexico and the tech transfer and environment projects. The tracking tool we examined was well-
organized and showed whether trainees had completed or achieved particular learning objectives
of PST, or whether they were still “in progress.”

Evaluation of Training. The post engaged in a range of evaluation exercises to assess the
effectiveness of its training program, and make improvements based on feedback and


Final Program Evaluation Report: Peace Corps/Mexico                                                            9
suggestions from Volunteers. We reviewed several surveys and summaries of trainee feedback,
and training staff explained to us how training had been revised in response to these evaluations.

Adequacy of Training Resources. The training team at the post had experienced turnover prior
to our fieldwork as the long-serving training manager left to pursue other opportunities. Training
staff we interviewed reported being over-worked. The post was in the process of hiring new
programming and training specialists to provide additional support, including taking on some
training responsibilities.

Training Effectiveness. Volunteers we interviewed were generally satisfied with the quality of
training the Peace Corps offered.

                          Table 1: Volunteer Perceptions of Training Effectiveness 8
                                 Area              Percent of Volunteers           Average
                                                   Who Rated Training              Rating
                                                        Favorably
                        PST:
                           Local Languagea                   84%                      4.3
                           Cross Culturalb                   95%                      4.4
                           Safety and
                                                             65%                      3.8
                           Securityc
                           Medicald                          55%                      3.8
                           Technicale                        44%                      3.5
                        Early ISTf                           63%                      3.8
                        Mid-Service ISTg                     67%                      3.8
                        All Volunteer
                                                             79%                      4.2
                        Conferenceh
                      Source: OIG Interviews.
                      a
                       N=19, bN=20, c N=20, dN, =20, eN=18, fN=16, gN=6 hN=14

Some training areas got particularly high marks. Volunteers made positive comments about the
quality of the post’s language and culture training:

         “There was a lot which was helpful. Politics, economics, government structure were very well presented
         and helpful.”

         “The teachers were great. Very patient and had lots of different materials for us. They were strict about
         speaking only in Spanish and immersion in the classroom.”

Other training topics were rated less positively by Volunteers. In particular, Volunteers reported
that the technical training sessions were not as useful and relevant as other sessions. However,
Volunteers and staff explained that given the diverse backgrounds and experiences of the
trainees, as well as the diversity of technical jobs each trainee was preparing to do, the Peace
Corps did as good a job as could reasonably be expected. The following Volunteer comment
8
  In calculating the percentage of favorable ratings for this table, we used a five-point scale, with five being most
favorable and one being least favorable. A rating of three was considered neither favorable nor unfavorable. The
percent of Volunteers who rated training favorably includes those who rated training as either a four or a five.cent
of Volunteers Who Rated Training Favorably

Final Program Evaluation Report: Peace Corps/Mexico                                                                     10
represents the three: neither effective nor ineffective response that was common. Seven of 18
Volunteers rated technical training similarly.

       [The technical training] gave me a good general overview of CONACYT and the centers and the business
       environment. The field trips to see the centers gave us a good idea of the environment we would be in, and
       some challenges we would face. But training I would use day to day was not there because we were all
       going into different assignments. They did as well as they could given that. Also, they were required to
       train us on a bunch of stuff that was not relevant--mostly the FITU [Focus In/Train Up] sessions that were
       not relevant. That was the worst part.

As with technical training, about 30 percent of Volunteers rated both safety and security and
medical training as a three: neither effective nor ineffective. In their comments the most
frequently cited reason for the rating of three was that the trainer had been required to read from
a script:

       “…When HQ was putting out standardized trainings on the slide that was really challenging for us as a
       training group in general because we did not receive what we needed. There was very few trainings related
       to Mexico. Staff was unhappy…and we were frustrated. It made it that much more challenging to keep a
       positive attitude. So, I would say it was a three…because it was a top down approach for things that really
       should not have been a top down approach. There was a lack of cultural context… The effect of the script--
       it just made it so we wanted to tune it out.”

       “We had to sit through the scripted sessions on SARRR [sexual assault risk reduction and response] and
       they are hard and heavy topics. Reading from a script feels distant and unwelcoming. That said, [the
       trainer] did instill confidence in me but this is more about [the trainer] than the quality of the script. I felt
       like the training session was so hard hitting I was almost crying.”

       “It included some information we needed to know, but it was read from a script. Treated us like teenagers.
       Literally read from a script.”

While some Volunteers made critical remarks about the effectiveness of particular training
sessions, very few Volunteers rated any particular training session as ineffective. Most
Volunteers reported that the training the Peace Corps provided was effective.

The evaluation uncovered some training-related areas that require management attention. The
remainder of this section provides more information about these topics.

Volunteers frequently did not meet the post’s Spanish language swearing-in requirements,
and the post had provided inconsistent support for Volunteers’ on-going Spanish language
learning.

The Peace Corps Act states:

       No person shall be assigned to duty as a volunteer under this chapter in any foreign country or area unless
       at the time of such assignment he possesses such reasonable proficiency as his assignment requires in
       speaking the language of the country or area to which he is assigned.

Due to the difficulty of recruiting highly-skilled and experienced Volunteers for Mexico who
also speak Spanish, there is no Spanish language requirement for applicants to the tech transfer
project or the natural resource management specialist positions in the environment project.

Final Program Evaluation Report: Peace Corps/Mexico                                                                        11
According to an analysis by the office of Volunteer Selection and Placement, the lack of a
Spanish language requirement “greatly assists Mexico in filling all positions.” Thus, a relatively
high percentage of Volunteers arrive for training in Mexico with no or very minimal Spanish
language proficiency.

The Volunteer handbook in Mexico specifies that every trainee is required to reach an
intermediate low level of Spanish by the end of PST in order to be officially sworn-in as a
Volunteer. Those trainees who do not test at or above an intermediate-low level of Spanish may
be given the opportunity to swear-in conditionally. According to the handbook, Volunteers who
swear-in conditionally should prepare a language learning plan, be closely monitored by staff,
and re-tested after approximately three months at which point the conditional Volunteer status
may be removed provided the trainee reached the intermediate low level. If the Volunteer still
has not reached intermediate low, the country director may “determine what further action will
be taken.”

Language testing scores were maintained in the post’s Volunteer Information Database
Application (VIDA). We examined all available language scores in VIDA for Volunteers who
served in Mexico. 9 Out of 211 Volunteers with LPI testing scores in VIDA, 33, or 16 percent,
did not reach intermediate low by the end of PST. VIDA contained follow-up Spanish test results
for just six of these 33 Volunteers. Prior to 2012, the post was not requiring a language learning
plan or follow-up Spanish test for Volunteers who had sworn-in on a conditional basis.

The percentage of Volunteers in Mexico who lacked reasonable proficiency in Spanish was
relatively high. Six of 20 Volunteers we interviewed reported that lack of Spanish hindered their
ability to integrate in their communities. Volunteers also reported that their inadequate Spanish
skills made them less effective in their primary assignments. Lack of Spanish resulted in some
Volunteers not being able to effectively use the high skills they possessed--and for which they
had been recruited--and resorting to proof-reading English papers, or giving English classes:

           “I can see why they don’t really want me to be on some other projects—because I can’t understand what is
           going on and I can’t communicate my experience to them. How am I supposed to go into a meeting with
           these scientists and PhDs and speak like a kindergartener and get my point across?”

           “No one speaks English in my office and it is a very high level job. I was too good when I finished [PST] to
           get tutoring. But in a professional setting it is different and it just does not look good for me not to be able
           to express myself…Here I am mediocre because of my Spanish. If I have to work at advanced high in my
           office then [the Peace Corps] office should support my language until I get to that.”

A counterpart we interviewed who had worked directly with six tech transfer Volunteers
emphasized the importance of Spanish language skills:
           Volunteers with better Spanish are definitely more effective than those who can’t speak it. I have seen this.
           They are happier and more productive when they can communicate well in Spanish. Of course. Also…it’s
           important for Volunteers to have Spanish to be able to do a secondary project. It’s definitely a problem
           outside the [CONACYT] centers for those who can’t speak Spanish.




9
    Test scores were recorded in VIDA starting with the second group of Volunteers who went through PST in 2005.

Final Program Evaluation Report: Peace Corps/Mexico                                                                     12
Eight Volunteers (40 percent) expressed a strong need for on-going Spanish language support.
The language coordinator provided language resources to Volunteers to facilitate ongoing
learning. In the past, when the budget allowed, the post had provided a tutoring stipend to
Volunteers, but support for on-going Spanish language classes or tutors has varied with
successive Volunteer cohorts. Given the current need and demand among Volunteers for on-
going Spanish language support, and basing predictions of future need on the percentage of
trainees in Mexico who have historically not reached intermediate low, it is important for post to
make on-going Spanish language learning a higher priority.


                  We recommend:

                      2. That the director of programming and training develop
                         and implement a plan to prioritize and support ongoing
                         Spanish language learning for Volunteers in Mexico.

VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, “Has post provided adequate
support and oversight to Volunteers?” To determine this, we assessed numerous factors,
including staff-Volunteer communications; project and status report feedback; medical support;
safety and security support including staff visits to Volunteer work sites, the Emergency Action
Plan (EAP), and the handling of crime incidents; and the adequacy of the Volunteer living
allowance.

In general, we determined through our evaluation that post has developed a solid Volunteer
support structure. Volunteers were satisfied with staff support in areas of safety and security,
medical, and administrative support. Sixteen of 17 Volunteers considered the post staff to be
either ‘effective’ or ‘very effective’ in supporting their adjustment to Volunteer life. The
following table summarizes Volunteers’ ratings of the supportiveness of particular Peace Corps
staff members:

                     Table 2: Responses on Perceptions of Volunteer Support 10
                                Area              Percent of Volunteers          Average
                                                   Who Rated Support             Rating
                                                  from Staff Favorably
                       Leadership
                         Country Director
                                                            58%                     3.9
                         (CD)
                         Director of
                                                            11%                     1.9
                         Program and

10
  In calculating the percentage of favorable ratings for this table, we used a five-point scale, with five being most
favorable and one being least favorable. A rating of three was considered neither favorable nor unfavorable. The
percent of Volunteers who rated staff support favorably includes those who rated it as either a four or a five.
Programming was derived by averaging the PMs and PAs. Training was derived from the Training Manager’s score.
Safety and Security was derived from the SSC’s score. Medical was derived from the PCMO’s score. Admin was
derived from the DMO’s score.

Final Program Evaluation Report: Peace Corps/Mexico                                                               13
                          Training (DPT)11
                        Programming                          86%                     4.4
                        Training                             94%                     4.6
                        Safety and Security                  82%                     4.4
                        Medical                              75%                     4.1
                        Admin                                93%                     4.5
                      Source: OIG Interviews

The previous DPT who left the Peace Corps in September 2013 was poorly regarded by
Volunteers. Volunteers reported the previous DPT to be condescending and ineffective. Just
prior to fieldwork for the evaluation, the post received a new DPT. During fieldwork the new
DPT was engaged in addressing some of the areas that had been left unattended by her
predecessor, including establishing expectations that Volunteer work reports would be reviewed
and responded to in a more timely manner by program staff, and improving the post’s approach
to keeping track of all Volunteer site visits.

In reviewing the VAC, safety and security support, crime incident response, emergency
preparedness, medical support, living allowance, travel policy, and site visits, OIG found no
significant areas of concern that would necessitate action by the post.

VAC. The evaluation determined that the post’s Volunteer VAC is a high functioning and
effective forum for discussing Volunteer issues in a professional and productive manner with
staff. In Mexico, regional VAC meetings are held quarterly amongst Volunteers, and national
meetings occur biannually between elected Volunteer representatives and staff. Volunteers
reported being highly satisfied with the VAC: 82 percent of Volunteers considered the VAC
“effective” or “very effective.”

         “I’m on the VAC for this reason. I think [the CD] genuinely wants to hear about any issues that are
         common to Volunteers.”

         “It’s a good idea and a good route for communicating. The office is very open to suggestions from the
         VAC.”

Safety and Security. The post closely monitored the security environment of Volunteers’ sites
and took a conservative approach to placement. According to the most recent All Volunteer
Survey (AVS), 100 percent of Volunteers reported that they feel ‘adequately’ to ‘very’ safe
where they work and travel and 98 percent of Volunteers reported that they feel ‘adequately’ to
‘very’ safe where they live. Additionally, the evaluation found that Volunteers’ housing
complied almost completely with post housing criteria for safety:

        Fourteen of 17 houses were 100 percent compliant with the standards.
        Two urban houses were 94 percent compliant.
        One rural house was 88 percent compliant.



11
  Score pertains to previous DPT, not the post’s current DPT who arrived at post just prior to fieldwork for this
evaluation.

Final Program Evaluation Report: Peace Corps/Mexico                                                                 14
We also found that in our sample, 90 percent of Volunteers were able to produce an up-to-date
EAP, and 90 percent knew where their consolidation point was.

Crime Incident Response. The post adequately responded to crimes committed against
Volunteers. Five Volunteers in our sample reported that they had been victims of a crime. When
asked how the post staff responded to the incidents, the majority of Volunteers reported that the
staff responded “well” or “very well.” In addition, at the time of the evaluation, all required staff
members had completed the online sexual assault response training. 12

Emergency Preparedness. We had no concerns regarding the post’s emergency preparations.
Staff members maintained effective relationships with security personnel at the U.S. Embassy
and the safety and security coordinator (SSC) was working to further relationships with local law
enforcement. Safety and security criteria were incorporated into site development to ensure that
Volunteers were not placed in homes that would expose them to an unnecessary level of risk. In
July 2013, the post completed its medical evacuation plan. During our evaluation we ascertained
that the post had a functioning duty officer system and was prepared to respond to Volunteers’
requests for assistance.

The post had not yet reviewed the agency’s new sexual assault response protocols with the U.S.
Embassy’s regional security officer, but indicated it would do so.

Medical Support. After several years of Peace Corps medical officer (PCMO) turnover,
Volunteers appeared satisfied with their medical and health support. They described the PCMO
as supportive and responsive. Volunteers also appreciated the friendly and helpful attitude of the
medical assistant. Almost all of the recommendations made by the Office of Health Services
(OHS) during their 2012 site visit had been addressed and completed. A follow-up OHS visit
occurred after our fieldwork in January 2014.

The new DPT informed us she was in the process of improving the post’s system for tracking all
site visits and check-ins with Volunteers so that staff could identify Volunteer support needs,
including physical or emotional health needs, that might otherwise go undetected.

Volunteer Living Allowance. Volunteers’ Living Allowance varied according to where the
Volunteer lived and his or her marital status. 13 Most interviewed Volunteers were satisfied with
the adequacy and timeliness of their settling-in and living allowances. Although several
Volunteers stated that they should receive a higher-tiered stipend, most reported that they were
still able to purchase necessities and pay for living expenses.




12
   The training is required for: CDs, DPTs, DMOs, SSCs, associate Peace Corps project managers, programming
and training specialists, training managers, PCMOs, and any other staff who may function as a duty officer or first
responder.
13
   The post uses a three-tiered scale. Volunteers living in the more expensive urban cities receive the highest
monthly allowance, and Volunteers living in more rural towns receive the lowest.

Final Program Evaluation Report: Peace Corps/Mexico                                                                   15
The post had conducted annual surveys to assess the adequacy of Volunteer allowances and
made adjustments.14 In the most recent survey, post communicated to Volunteers that 85 percent
needed to complete the survey for a living allowance increase to be considered.15 Only 62
percent of Volunteers completed the survey.

Travel Policy. In 2013, the CD revised Mexico’s leave policy to align it more closely with other
Peace Corps countries’ leave policies. The revisions required Volunteers to request incidental,
annual or work-related travel leave if they wanted to travel outside their communities.
Volunteers were no longer allowed to travel away from their site whenever their office was
closed. The policy change was disagreeable to some Volunteers who argued that since their
primary assignments were Monday through Friday office jobs, they should be allowed to travel
on weekends. Although a source for tension for some, Volunteers’ grievances were being
addressed through the VAC. Furthermore, the policy was within the guidelines established in the
Peace Corps Manual 220 “Leave for Volunteers/Trainees.”

Site Visits. At the time of the evaluation, the Inter America and the Pacific (IAP) region was
seeking input from overseas field staff and revising the July 2012 version of its “Site
Development and Site Monitoring Standards and Procedures” document. Staff at post reported
that their efforts to comply with this guidance required a great amount of time and had created
high levels of stress. In January 2014 the IAP region issued revised and updated guidance that
allowed some additional flexibility for staff.

Volunteers did not report any problems with site visits. Ninety percent of Volunteers said they
received an adequate number of site visits, and seventy-six percent of interviewed Volunteers felt
that the site visits met their needs; the remaining 24 percent were neutral. In light of the revised
site development and site monitoring standards and procedures, the high degree to which
Volunteer housing in Mexico met the post’s criteria for safety and security, and Volunteer
satisfaction with site visits, we did not have any concerns with the post’s site monitoring
procedures.

The evaluation uncovered some areas that require management attention, particularly related to
site locator forms, Masters International (MI) placement, and Volunteer Reporting Feedback
(VRF). The remainder of this section provides more information about these topics.

Volunteer site locator forms were inaccurate and missing key information.

Site locator forms (SLFs), also called emergency locator forms, are an important component of
every Peace Corps post’s EAP. The key information to include on SLF is detailed in Peace
Corps’ Characteristics and Strategies of a High Performing Post: Post Management Resource
Guide, Part 11.8, “The Post Emergency Action Plan,” which states in part:



14
   Posts are required to conduct an annual survey to ensure that all Volunteers receive adequate allowances to obtain
goods and services need to safely serve as Volunteers.
15
   The DMO’s analysis of the living allowance survey results suggest that the 85 percent completion rate was later
lowered to 75 percent.

Final Program Evaluation Report: Peace Corps/Mexico                                                               16
       … maps to the Volunteer’s site and house, emergency communications means and contacts,
       possible modes of transportation, the nearest clinic, airfield, and police post, and various other
       site-related information.

Furthermore, the Office of Safety and Security established a Standard Operating Procedure
outlining the SSC’s responsibilities regarding SLF:

          The SSC will coordinate with appropriate staff to ensure that site locator information is
          reviewed during all site visits, including GPS data, where permissible...The SSC will ensure a
          system is in place for the review and improvement of maps to Volunteer residences.

All Volunteer files we examined contained site locator forms, but only 68 percent of Volunteers
had included accurate maps and directions to their houses. Also, only 53 percent of Volunteers’
files included contact information for local police. These omissions and inaccuracies could
compromise the ability of staff to respond efficiently to Volunteers who require urgent
assistance.

                We recommend:

                      3. That the safety and security coordinator ensure that all
                          Volunteer site locator forms contain accurate and
                          complete information, and that the post has a process
                          for verifying information on site locator forms through
                          site visits or other means.

Program staff did not have timely information about the academic needs of Masters
International (MI) Volunteers invited to serve in Mexico.

MI is a Peace Corps program where students enroll in a master’s degree program and complete
classes before going abroad to serve as a Volunteer. Staff in the Placement Office and the MI
Office stated that MI Volunteers were expected to be flexible with their education requirements
and view themselves as “Volunteers first and students second.” Invitations to applicants are
based on whether their language and technical skills match the post’s Volunteer requests. In most
Peace Corps posts, a Volunteer’s site placement is determined several weeks into PST, allowing
staff sufficient time to understand and consider MI Volunteers’ research needs as a factor in
matching the Volunteer to a particular site.

In Mexico sites for each Volunteer are identified before applicants arrive in country for PST.
CONACYT and SEMARNAT officials sponsor each Volunteer’s visa based on a particular job
and site assignment, requiring the post to determine each Volunteer’s site before their arrival in
Mexico. This process constrains the ability of staff to learn about the MI Volunteers’ research
interests unless those interests had been expressed in the Volunteer’s application materials or
discussed by phone with the applicant as part of the post’s Volunteer selection process.

As a result, some MI Volunteers in Mexico were concerned that their sites were not conducive to
the successful completion of the research requirements of their degrees. Staff in Mexico had
engaged in discussions with Volunteers about the MI program and how to strengthen ties

Final Program Evaluation Report: Peace Corps/Mexico                                                         17
between Peace Corps and universities engaged in the MI program. In order for the post to have
more timely information about the MI Volunteer research interests it is important that applicants
express those interests to post in initial discussions and communications prior to departure.

               We recommend:

                    4. That the regional chief of operations and the director of
                        programming and training encourage applicants to
                        Peace Corps/Mexico to include information about their
                        Master’s International research interests in their pre-
                        departure communications with their program
                        manager.

Tech transfer Volunteers did not receive feedback on their work reports.

Volunteers at the post are required to submit VRFs three times per year, which detail their work
activities. The Peace Corps’ “Programming and Training Guidance: Management and
Implementation” encourages programming staff to read and provide timely feedback to each of
these periodic reports.

Only 33 percent of Volunteers reported that they received VRF feedback “most of the time” or
“always.” Out of 32 VRFs we reviewed, just two of 15 tech transfer VRFs showed evidence of
review and feedback by the program manager, and 15 of 17 environment VRFs showed evidence
of review and feedback by the program manager.

When Volunteers who had received feedback were asked to rate the quality of the feedback, only
60 percent (nine out of 15) rated it favorably. Several Volunteers reported being told that they
should not expect feedback on their VRFs. As a result of the lack of timely, quality feedback,
some Volunteers admitted that they no longer put as much detail into their work reports. This
could diminish the value of the VRFs for project management purposes and erode the quality of
information post has available for its annual reports on project results.

Staff acknowledged that providing timely feedback had been a challenge and was an area for
improvement. These challenges were caused by staff unfamiliarity with the Volunteer Reporting
Tool; staff also reported that sometimes the VRT did not function correctly when they went to
use it. In addition, whereas the environment program had a PCVL who could assist and facilitate
the program manager’s review of Volunteer reports, the tech transfer program manager had no
PCVL. The previous DPT did not prioritize the review of VRFs or the provision of feedback to
Volunteers by staff, and had not established expectations or guidelines concerning the quality,
timeliness, and method of providing VRF feedback.

The post made recent efforts to improve the quality and timeliness of Volunteer feedback. The
new DPT had identified the VRF as an area of improvement and had set clearer expectations
related to the review of VRFs and provision of feedback from staff to the Volunteer within 30
days. In addition, the post was in the process of hiring a programming and training specialist to
support the tech transfer project.

Final Program Evaluation Report: Peace Corps/Mexico                                                 18
               We recommend:

                    5. That the director of programming and training ensure
                        that Volunteers receive timely feedback from program
                        staff on their work reports.


MANAGEMENT CONTROLS

Another key objective of our country program evaluation is to assess the extent to which the
post’s resources and management practices are adequate for effective post operations. To address
this question, we assess a number of factors, including staffing; staff development; office work
environment; collecting and reporting performance data; and the post’s strategic planning and
budgeting.

In reviewing PCVL roles, the post’s relationship with headquarters and the embassy, and post’s
professionalism and morale, we found no significant areas of concern that would necessitate
action by the post.

PCVL Roles. We had no concerns about the PCVL program in Mexico. The PCVL at the post
during our field work was highly regarded by Volunteers and received a 93 percent favorable
rating. Although PCVLs are no longer required to have a Volunteer assignment, the post
continues to encourage PCVLs to have one. While the post’s small number of Volunteers has
made in difficult to recruit PCVLs, the post would benefit from more PCVLs in order to assist
the programming team by, for example, drafting VRF feedback or assisting with site
development and monitoring activities. A PCVL regional model could be helpful, particularly if
post considers ways to support Volunteers in other states of Mexico farther from Queretaro.

Relationship with Headquarters. The post had a good relationship with headquarters. The
country desk officer reported that he communicates with post every day and by phone with the
CD every other week. The CD similarly reported having a positive relationship with the Country
Desk Unit and stated that he tries to keep the Country Desk Unit as informed as possible. We did
determine that staff felt a high level of stress as a result of the recent increase in new
expectations from headquarters. This will be further discussed below under Other Areas of
Concern.

Relationship with the Embassy. The post had an effective working relationship with the U.S.
Embassy in Mexico City. The post leadership regularly participated in embassy meetings. The
embassy staff was very knowledgeable of the Peace Corps’ operations in Mexico and felt that the
project fits in well with the U.S. government’s broader objectives.

Professionalism and Morale. In general, staff members reported that the office had good
morale. Despite high stress levels related to workloads, staff reported that relations in the office
were generally respectful and based on a shared sense of mission.




Final Program Evaluation Report: Peace Corps/Mexico                                                19
                                OTHER AREAS OF CONCERN
We noted the following additional areas that could be improved to enhance efficiency.

The Peace Corps’ AfterCorps Program. During fieldwork for this evaluation the agency
changed its program for providing subsidized health insurance to Volunteers who complete their
service. Previously, Volunteers who completed their service were offered the opportunity to
purchase health insurance from Peace Corps’ AfterCorps program for up to 18 months. In the fall
of 2013, after the passage of the Patient Protection and Affordable Care Act (ACA) in March
2010, the Peace Corps announced changes to its AfterCorps program. The agency instituted this
change because it determined that AfterCorps is a low-cost limited benefit plan which does not
comply with the requirement of the Affordable Care Act (ACA) for “minimum essential
coverage.” The changes limited AfterCorps coverage for returned Peace Corps Volunteers to
three months. These changes surprised and upset Volunteers in Mexico who had considered the
After Corps program as one factor in their decision to apply for Peace Corps service.
         A big attraction was the end of service health insurance: two years of Peace Corps plus one and a half years
         of health insurance would take me pretty close to 65 when I would qualify for health care. After looking
         into the ACA, insurance plans for a single man in my health bracket are significantly more. This impacts
         the status of my retirement. Taking away the end of service insurance is grotesquely unfair.

Volunteers in Mexico who evaluated the financial effect of the change reported that they
anticipated having to incur higher costs for health insurance, ranging from $200 to $375 more
per month for the months of coverage no longer available through AfterCorps.16 Regardless of
what the Volunteers will ultimately pay for healthcare coverage, some were upset that the Peace
Corps had changed its commitment to them after they had taken this incentive into consideration
when deciding whether or not to join the Peace Corps.

The Peace Corps has advised that RPCVs have several options for coverage after completing
their service. The agency has developed an informational webpage for RPCVs regarding changes
to the After Corps program.17

While we do not have a basis to formulate a recommendation about this issue, we have included
it in our evaluation report because some Volunteers in Mexico believe that the agency did not
live up to its promises.




16
   The actual cost to Volunteers for the plans available in the ACA marketplace will depend on a variety of factors,
including the plan they choose and their household size and income. See https://www.healthcare.gov/will-i-qualify-
to-save-on-out-of-pocket-costs/
17
   For more information on Peace Corps AfterCorps program, see: http://passport.peacecorps.gov/2013/12/13/new-
options-for-health-insurance-coverage-after-peace-corps-service/

Final Program Evaluation Report: Peace Corps/Mexico                                                               20
Post Staff Overworked. Staff made it clear during our fieldwork that they felt stress related to
their workloads. In particular, staff experienced anxiety related to attempting to comply with a
range of new expectations from Peace Corps headquarters that included standards related to site
development and site monitoring; improving monitoring and evaluation of Volunteer activities,
delivering standardized training sessions in a range of areas, taking a more standard approach to
assessing trainee learning and Volunteer achievement of core expectations, and other initiatives.

Staff reported that, while each of these initiatives and changes were well-intentioned and useful,
it was very difficult to comply with all of them given their already high workloads. Staff was
visibly upset and emotional when describing their challenges related to satisfying all the work
requirements associated with the expectations described above.

Volunteers also felt the effects of staff’s increasing workload. While Volunteers were generally
positive about the staff, several mentioned how overwhelmed they observed the staff to be:

       “The biggest weakness is—it feels as if every person has more work than they can manage. They spend an
       awful lot of time doing reports for HQ. A lot of time doing the ‘urgent’ but not the important stuff. They
       didn’t come to the talent show at end of training. If there is ever a time to bond with Volunteers, that is it.
       But they were slaving away in their offices.”

       “Maybe their workload is too much and prevents them from being helpful.”

Staff comments included:

       “We at post in general feel overwhelmed by all the stuff coming out and what we can absorb.”

       “We tried to put everything in the calendar and there was not enough time. When you add safety and
       security and other things…There is a team in headquarters and they think of great things, but probably not a
       lot of communication and understanding of post realities. There are so many rules and things to do. We try
       to comply but we don’t have time.”

       “Reduce the management workload, please. It’s too much. I love my job, but…it is unreasonable the
       amount of work that would be required to comply with everything. It just simply doesn’t fit in the calendar.
       It is simply unrealistic. Of course we can be creative and find ways to do some of the things, but that is not
       sufficient.”

In addition to new initiatives and guidance affecting all posts, the post was preparing to switch
from two trainee inputs a year to one starting in March 2014. As a result of this shift, recent
months had been particularly stressful for the environment project team and training staff. The
stress levels staff expressed should somewhat abate when the next training class is finished with
PST in May of 2014. Another cause of workload-induced stress among field staff at the post was
the lack of coordination by various offices at Peace Corps headquarters generating and pushing
out new initiatives and guidance to the field. There was not an office or a process at headquarters
that ensured that new guidance and expectations sent to overseas field staff were paced so as not
to overwhelm the capacity of field staff to respond and comply with them.

High levels of stress can have negative physical and emotional effects. Staff turnover may
increase as people seek less stressful jobs elsewhere. Volunteers may be hesitant to approach
staff with questions or requests if they feel that staff is already too overworked.

Final Program Evaluation Report: Peace Corps/Mexico                                                                 21
Headquarters staff reported being aware of the workload demands that had been placed on
overseas staff and acknowledged it was an issue for all posts, not just Mexico. One senior
manager stated that “Ultimately, [headquarters is] overloading posts. Particularly within the last
three years, we’ve sent out a lot of mandates.” As this preliminary report was being produced,
the Office of Global Operations issued “Standard Operating Procedures for Headquarters
Communication with Regions and Posts” to improve how headquarters offices coordinate and
manage communication with field staff.

Because of this communication initiative, the additional flexibilities granted posts in the revised
January 2014 site development and site monitoring procedures, and the fact that staff in Mexico
were in the middle of a temporary transitional phase of particularly high workload, we are not
issuing a recommendation. We intend this description of the workload issues in Mexico will
inform decision-makers at Peace Corps headquarters of the importance of finding ways to more
carefully coordinate and manage the flow and pace of new initiatives and expectations for
overseas staff.




Final Program Evaluation Report: Peace Corps/Mexico                                               22
                          LIST OF RECOMMENDATIONS
WE RECOMMEND:

1. That the country director develop a plan for placing and supporting tech transfer and
environment Volunteers in areas of greater need within Mexico.

2. That the director of programming and training develop and implement a plan to prioritize and
support ongoing Spanish language learning for Volunteers in Mexico.

3. That the safety and security coordinator ensure that all Volunteer site locator forms contain
accurate and complete information, and that the post has a process for verifying information on
site locator forms through site visits or other means.

4. That the regional chief of operations and the director of programming and training encourage
applicants to Peace Corps/Mexico to include information about their Master’s International
research interests in their pre-departure communications with their program manager.

5. That the director of programming and training ensure that Volunteers receive timely feedback
from program staff on their work reports.




Final Program Evaluation Report: Peace Corps/Mexico                                                23
       APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY
In 1989, the Peace Corps OIG was established under the Inspector General Act of 1978 and is an
independent entity within the Peace Corps. The purpose of OIG is to prevent and detect fraud,
waste, abuse, and mismanagement and to promote economy, effectiveness, and efficiency in
government. The Inspector General is under the general supervision of the Peace Corps Director
and reports both to the Director and Congress.

The Evaluation Unit provides senior management with independent evaluations of all
management and operations of the Peace Corps, including overseas posts and domestic offices.
OIG evaluators identify best practices and recommend program improvements to comply with
Peace Corps policies.

The Evaluation Unit announced its intent to conduct an evaluation of the post on July 10, 2013.
For post evaluations, we use the following researchable questions to guide our work:

      To what extent has post developed and implemented programs to increase host country
       communities’ capacity?
      Does training prepare Volunteers for Peace Corps service?
      Has the post provided adequate support and oversight to Volunteers?
      Are post resources and management practices adequate for effective post operations?

The evaluation team conducted the preliminary research portion of the evaluation from July
through September. Fieldwork was scheduled to begin at the end of September but was delayed
for one month due to the government shutdown in October. This research included review of
agency documents provided by headquarters and post staff; interviews with management staff
representing: Inter-America and the Pacific Operations; Office of Global Operations; Office of
Volunteer Recruitment and Selection; Peace Corps Response; Office of Safety and Security;
Office of General Counsel; Office of Victim Advocacy; OHS; and the Office of
Intergovernmental Affairs and Partnerships.

In-country fieldwork occurred from November 4-22, and included interviews with post senior
staff in charge of programming, training, and support; the U.S. deputy chief of mission; the U.S.
Embassy’s regional security officer; and host country government ministry officials. In addition,
we interviewed a stratified judgmental sample of 20 Volunteers (38 percent of Volunteers
serving at the time of our visit) based on their length of service, site location, project focus,
gender, age, and ethnicity.

This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency. The evidence, findings, and
recommendations provided in this report have been reviewed by agency stakeholders affected by
this review.




Final Program Evaluation Report: Peace Corps/Mexico                                            24
                    APPENDIX B: INTERVIEWS CONDUCTED
As part of this post evaluation, interviews were conducted with 20 Volunteers, 15 staff members
in-country, 22 representatives from Peace Corps headquarters in Washington D.C. and the U.S.
Embassy in Mexico, and six representatives from Mexican counterpart agencies. In addition, we
interviewed nine other individuals in response to their requests to participate in the evaluation,
including one returned Peace Corps/Mexico Volunteer, five Volunteers in service at the time of
fieldwork who were not part of our formal sample, and three Volunteer counterparts in both the
tech transfer and environment project sectors. Volunteer interviews were conducted using a
standardized interview questionnaire, and Volunteers were asked to rate many items on a five-
point scale (1 = not effective, 3 = neutral, 5 = very effective). The analysis of these ratings
provided a quantitative supplement to Volunteers’ comments, which were also analyzed. For the
purposes of the data analysis, Volunteer ratings of “4” and above are considered favorable. In
addition, 18 out of 20 Volunteer interviews occurred at the Volunteers’ homes18, and we
inspected 16 of these homes using post-defined site selection criteria. 19 The period of review for
a post evaluation is one full Volunteer cycle (typically 27 months).

The following table provides demographic information that represents the entire Volunteer
population in Mexico; the Volunteer sample was selected to reflect these demographics.

                                 Table 3: Volunteer Demographic Data
                                                                      Percentage of
                                  Project
                                                                       Volunteers
              Environment                                                 62%
              Tech Transfer                                               38%
                                                                      Percentage of
                                  Gender
                                                                       Volunteers
              Female                                                      51%
              Male                                                        49%
                                                                      Percentage of
                                    Age
                                                                       Volunteers
              25 or younger                                               15%
              26-29                                                       19%
              30-49                                                       25%
              50 and over                                                 42%
             Source: Volunteer Information Database Application for Peace Corps Mexico.
             Note: Percentages may not total 100 percent due to rounding.


18
   One Volunteer was in the process of moving to Queretaro for her third year as a PCVL, and so was interviewed at
a café in Queretaro. Another Volunteer was in Queretaro rather than her work site, and so was interviewed at the
Peace Corps office.
19
   At the time of field work the 20 Volunteers in our sample included two married couples and one Volunteer in-
between houses, bringing the number of Volunteer-occupied houses to 17. We inspected 16 of the 17 houses on site.
Because one Volunteer was interviewed at the Peace Corps office rather than at her work site, we relied on her
answers to our questions about the safety and security of her housing.

Final Program Evaluation Report: Peace Corps/Mexico                                                            25
At the time of our field visit, the post had 23 staff positions. The post also employed temporary
staff/contractors to assist with PST. We interviewed 13 staff members as well as two former staff
members who left in September 2013.

                    Table 4: Interviews Conducted with Post Staff Members
                               Position                        Status    Interviewed
      Country Director                                                   USDH                   X
      Former Director of Programming and Training (departed              USDH                   X
      September 2013)
      Director of Programming and Training                               USDH                   X
      Training Manager                                                   PSC*                   X
      Former Training Manager (departed September 2013)                  PSC                    X
      Peace Corps Medical Officer                                        PSC                    X
      Director of Management and Operations                              FSN                    X
      Program Manager, Tech Transfer                                     PSC                    X
      Program Manager, Environment                                       PSC                    X
      Programming and Training Specialists (2)                           PSC                    X
      Safety and Security Coordinator                                    PSC                    X
      Programming Assistant                                              PSC                    X
      Medical Administrative Assistant and Sexual Assault                PSC                    X
      Response Liaison
      Language and Host Family Coordinator                               PSC                    X
      Financial Assistant                                                FSN
      Janitor (3)                                                        PSC
      Cashier                                                            FSN
      Information and Technology Specialist                              PSC
      General Services Coordinator                                       PSC
      General Assistant                                                  PSC
      Administrative Clerk                                               PSC
   Data as of November 2013. *PSC is personal services contractor; FSN is foreign service national.

Thirty-one additional interviews were conducted during the preliminary research phase of the
evaluation, in-country fieldwork and follow-up work upon return to Peace Corps headquarters in
Washington, D.C.

            Table 5: Interviews Conducted with PC/Headquarters Staff, Embassy
                             Officials and Key Ministry Officials
                            Position                              Organization
       Associate Director for Global Operations                      PC/headquarters/Office of
                                                                     Global Operations
       Placement Manager                                             PC/headquarters/Office of
                                                                     Volunteer Recruitment and
                                                                     Selection
       Acting Regional Director                                      PC/headquarters/ Inter-America
                                                                     and the Pacific Operations
       Chief of Operations                                           PC/headquarters/ Inter-America
                                                                     and the Pacific Operations
       Chief of Programming and Training                             PC/headquarters/ Inter-America

Final Program Evaluation Report: Peace Corps/Mexico                                                   26
                                                                and the Pacific Operations
       Acting Chief Administrative Officer                      PC/headquarters/ Inter-America
                                                                and the Pacific Operations
       Mexico Country Desk Officer and Acting Regional          PC/headquarters/ Inter-America
       Security Advisor                                         and the Pacific Operations
       Programming Specialist                                   PC/headquarters/ Peace Corps
                                                                Response
       Recruitment and Placement Specialist                     PC/headquarters/ Peace Corps
                                                                Response
       Chief of Operations                                      PC/headquarters/ Peace Corps
                                                                Response
       Peace Corps Safety and Security Officer                  PC/headquarters/ Office of
                                                                Safety and Security
       Associate General Counsel                                PC/headquarters/Office of
                                                                General Counsel
       Director, Office of Victim Advocacy                      PC/headquarters/Office of
                                                                Victim Advocacy
       Director, Office of Medical Services                     PC/headquarters/Office of
                                                                Health Services
       Deputy Director, Counseling and Outreach Unit            PC/headquarters/Office of
                                                                Health Services
       Director of Intergovernmental Affairs and Partnerships   PC/headquarters/Office of
                                                                Intergovernmental Affairs and
                                                                Global Partnerships
       Deputy Chief of Mission                                  US Embassy in Mexico
       Deputy Regional Security Officer                         US Embassy in Mexico
       Assistant Regional Security Officer                      US Embassy in Mexico
       Regional Security Officer                                U.S. Consulate General,
                                                                Guadalajara in Mexico
       Counterparts of Technology Transfer Volunteers (2)       Mexico
       Counterpart of Natural Resource Management               Mexico
       Volunteer
       Director of International Cooperation                    National Commission of
                                                                Protected Natural Areas
                                                                (CONANP)
       Head of the International Affairs Unit                   Secretary of Environment and
                                                                Natural Resources
                                                                (SEMARNAT)
       Director of Cooperation                                  National Forestry Commission
                                                                (CONAFOR)
       Deputy Director of Technology Development and            National Council of Science
       Innovation                                               and Technology (CONACYT)
       Director of Institutional Development and Cooperation    National Council of Science
                                                                and Technology (CONACYT)
       Assistant Director of Bilateral and Multilateral         National Council of Science
       Cooperation Strategies                                   and Technology (CONACYT)
        Data as of November 22, 2013.




Final Program Evaluation Report: Peace Corps/Mexico                                              27
                      APPENDIX C: LIST OF ACRONYMS

 ACA                      Affordable Care Act
 CD                       Country Director
 CONACYT                  Consejo Nacional de Ciencia y Tecnología (National Council
                          on Science and Technology)
 DPT                      Director of Programming and Training
 EAP                      Emergency Action Plan
 FY                       Fiscal Year
 GIS                      Geographic Information Specialist
 IAP                      Inter America and the Pacific
 MI                       Master’s International
 OHS                      Office of Health Services
 OIG                      Office of Inspector General
 PCMO                     Peace Corps Medical Officer
 PCVL                     Peace Corps Volunteer Leader
 PST                      Pre-service Training
 SEMARNAT                 Secretaría de Medio Ambiente y Recursos Naturales
                          (Ministry of Environment and Natural Resources)
 SLF                      Site Locator Form
 SSC                      Safety and Security Coordinator
 VAC                      Volunteer Advisory Committee
 VIDA                     Volunteer Information Database Application
 VRF                      Volunteer Report Form




Final Program Evaluation Report: Peace Corps/Mexico                                    28
   APPENDIX D: AGENCY’S RESPONSE TO THE PRELIMINARY
                        REPORT




Memorandum

To:           Kathy Buller, Inspector General
Through:      Daljit K. Bains, Chief Compliance Officer

From:         Nina Favor, Acting Regional Director, IAP
              Daniel Evans, Country Director, Mexico

Date:         June 2, 2014

CC:           Carrie Hessler-Radelet, Acting Director
              Stacy Rhodes, Chief of Staff
              Joaquin Ferrao, Deputy Inspector General
              Jim O’Keefe, Assistant Inspector General for Evaluations
              Jerry Black, Senior Evaluator
              Carlos Torres, Associate Director, Global Operations
              Brian Riley, Chief of Operations, IAP
              Amy Johnson, Chief of Programming & Training, IAP
              Summer Tucker, Acting Chief Administrative Officer, IAP
              Heather Zissler, Director of Programming and Training, Mexico
              Rodrigo Lopez, Director of Management and Operations, Mexico
              Kimberly Helm, Country Desk Officer, Mexico
              Patricia Barkle, Deputy Chief Compliance Officer
              Nancy Miller, Associate General Counsel


Subject:      Agency Response to the Preliminary Program Evaluation Report: Peace
              Corps/Mexico Project No. 13-Eval-05, March 2014




Final Program Evaluation Report: Peace Corps/Mexico                                 29
Enclosed please find the Agency’s response to the recommendations made by the Inspector
General for Peace Corps/México Project No. 13-Eval-05, as outlined in the Preliminary Report
sent to the Agency on March 2014.

The Region concurs with all five recommendations provided by the OIG in its Preliminary
Program Evaluation Report: Peace Corps/México Project No. 13-Eval-05. Post has addressed
and provided supporting documentation for all five of the recommendations.

Recommendation 1: That the country director develop a plan for placing and supporting tech
transfer and environment Volunteers in areas of greater need within Mexico.

       Concur

       The IAP Region and PC/México (Post) appreciate the Congressional mandate to place
       Volunteers where they can fulfill local needs for trained manpower and meet the needs of
       the poorest areas.

       With more than 40% of Mexico’s 120 million people living in poverty, Post defines areas
       of great need both geographically, i.e. which states and regions are the poorest overall,
       and by which segments of society are the poorest and most in need of assistance.

       As identified in the report, PC/México operates in country under specific agreements
       with two agencies - CONACYT and SEMARNAT - that govern Volunteer assignments,
       including location in the country. Post utilizes both traditional two year Volunteers and
       Response Volunteers in order to provide the specialized skills needed by counterpart
       agencies. The majority of Response Volunteers are placed with public technical
       universities that serve underprivileged students.

       From a geographical perspective, of the ten states identified by the OIG with high
       poverty indices, four of the states are off limits to Peace Corps due to security reasons.
       Post places a significant number of Volunteers in four of the states with high poverty
       rates: Puebla, Oaxaca, Tlaxcala, and Hidalgo. Post has requested additional travel funds
       for FY15 to conduct further site development in the following states identified by OIG:
       Chiapas and the Yucatan peninsula.

       Technology Transfer (TT) and CONACYT
       Many of Mexico’s youth have migrated to cities in hopes of getting a better education
       and finding better opportunities for employment. Most live in urban areas and attend
       public universities. Over the last two years, Post has coordinated with CONACYT to
       develop Volunteer placements in public technical universities that align with CONACYT
       goals and serve underprivileged students. Post has placed 50% of TT Volunteers in
       Puebla and Hidalgo, both identified in the OIG Report with high rates of poverty.

       Environment and SEMARNAT
       A large percentage of Mexico’s poor live in isolated rural areas with limited access to
       adequate services and schools. Over the past two years, a key success under the
       agreement with SEMARNAT has been their support to sponsor the placement of


Final Program Evaluation Report: Peace Corps/Mexico                                              30
       Volunteers with municipal governments and local organizations, expanding beyond the
       agency itself. This has allowed Post to place Volunteers in some of Mexico’s poorest and
       most isolated communities to work more explicitly on environmental education.

       For both projects, Post provides Volunteers with training on working on community
       projects within the selected Cross-Sector Programming Priorities of Youth as Resources
       and Technology for Development.

       Post continues to balance poverty indices with security concerns, logistics of site visits,
       and travel costs for staff and Volunteers to determine the sites where Volunteers can
       serve productively and safely, while still addressing Peace Corps’ mandate to help the
       people most in need.

       In summary, Post’s continuing plan to place and support Volunteers in areas of greatest
       need includes the following components:
       1. Post conducted a strategic Technology Transfer analysis in 2014 to identify potential
           partners within CONACYT. Post determined that public universities were the best
           partners identified.
       2. Post has requested funding for travel in FY15 to explore further sites in Oaxaca and
           new sites in Chiapas and the Yucatan peninsula as noted above.
       3. Post will continue to assign at least 50% of all Technology Transfer Volunteers to
           public technical universities that serve the most underprivileged students.

       Documents Submitted:
           Mexico’s IPBS for FY 2015 – 2016: Pages 1, 4, 6 & 7
           Mexico Tech Transfer Volunteers by University or CONACYT Center
           Mexico Environment Volunteers by Site and State

       Status and Timeline for Completion:         March 8, 2014


Recommendation 2: That the director of programming and training develop and implement a plan
to prioritize and support ongoing Spanish language learning for Volunteers in Mexico.

       Concur

       PC/México has already taken steps to provide ongoing language support for Volunteers
       in Mexico who do not reach the mandatory intermediate/low level before swearing-in. In
       October 2013 Post formed a Language Task Force based on the recommendations of the
       Volunteer Advisory Committee. This group of staff and Volunteers has implemented
       several Volunteer recommendations. Post now provides optional funding to encourage
       Volunteers at the intermediate/low level to continue tutoring to reach the intermediate-
       mid level. Volunteers are required to prepare an Independent Study Plan and their
       progress will be monitored monthly by the Language Coordinator. Language levels will
       be evaluated again during Early In-Service (ESIT). The revised policy was shared with
       Volunteers in the February edition of the Volunteer newsletter, the Piñata.



Final Program Evaluation Report: Peace Corps/Mexico                                                  31
       Furthermore, Post has identified ongoing support and strengthening of language training
       as a priority not solely for the Volunteers at the lower levels, but also for advanced
       Trainees/Volunteers. For the Q2 FY14 PST, Post has diversified language training for
       advanced language learners to make training more dynamic and applicable to their future
       sites. Moving forward, Post proposed in its FY15-16 Strategic Plan to lower the ratio of
       LCFs to Trainees as well as provide tutoring funds for all Volunteers at or below the
       intermediate-mid level.

       Documents Submitted:
           Mexico’s IPBS for FY 2015 – 2016: Pages 2, 10 &13
           La Piñata, Peace Corps Mexico’s Newsletter, February 2014 Edition (pg.11-12)

       Status and Timeline for Completion:       March 8, 2014


       Recommendation 3: That the safety and security coordinator ensure that all Volunteer site
       locator forms contain accurate and complete information, and that the Post has a process
       for verifying information on site locator forms through site visits or other means.

       Concur
       Post recognizes the importance of maintaining up to date, accurate site locator forms
       (SLF) for all Volunteers. In order to collect all the required information, Post has
       implemented a series of actions to assure the SLFs are completed accurately before
       Volunteers arrive at their sites. For current Volunteers, additional measures are now in
       place to maintain accurate information in the event Volunteers move or change any other
       pertinent information and to verify the information on a regular basis.

       Prior to Volunteers arriving in their sites:
            Trainees will be given site locator forms during PST by the SSM who will explain
               the form and reinforce Peace Corps’ requirement that the information be accurate
               and up to date.
            During visits to their future sites, Trainees will be required to complete the form
               and determine the GPS coordinates of their residences
            Prior to being sworn-in, all Trainees must have submitted their completed site
               locator forms. The SSM will review the forms and work with all the Trainees to
               assure the SLFs are complete and accurate.

       After Volunteers arrive at their sites:
           SSM/staff will review the SLF with all Volunteers at Early IST (at the three
              month mark of service), during site visits, and when a Volunteer changes housing
              location/information.
           Every January the SSM will send all Volunteers a PDF version of their SLF. All
              Volunteers will be required to review the information and either confirm it is
              accurate or provide corrections to their data as needed. SSM will verify that the
              GPS coordinates and other information are correct and adequate to locate
              Volunteers in the event of an emergency. SSM will update VIDA.



Final Program Evaluation Report: Peace Corps/Mexico                                           32
              The SSM will update Post’s Google Earth map twice a year (end of February and
               end of September) to include the latest information on Volunteers throughout the
               country. Post’s SSM has tested Google Earth maps and determined that it
               provides very accurate GPS information. Updated Google Earth maps will be
               shared with the RSO and Regional RSO in Mexico City and Guadalajara, as well
               as with the Peace Corps Safety & Security Officer (PCSSO) and Regional
               Security Advisor (RSA).

       The IAP region is working in collaboration with the Office of Safety and Security, the
       Office of Global Operations and the Compliance Office to establish new procedural
       guidelines for locating Volunteers. The Region believes the existing guidance and
       resources are outdated, and innovative strategies can be better leveraged to reach our
       objectives. A working group has been formed for the purpose of drafting new guidance
       and options for moving forward are being evaluated. The working group anticipates that
       guidance will be rolled out no later than May, 2015.

       Documents Submitted:
              Policy for Maintaining Accurate Site Locator Forms
              Updated Site Locator Form

       Status and Timeline for Completion:         May 15, 2014



Recommendation 4: That the regional chief of operations and the director of
programming and training encourage applicants to Peace Corps/Mexico to
include information about their Master’s International research interests in
their pre-departure communications with their program manager.


       Concur

       PC/Mexico is extremely supportive of the Master’s International program and those
       students that work on projects at Post. Post follows the Agency’s approach that the
       primary responsibility of MI Volunteers is to their assigned project and community.

       Mexico’s selection and invitation process is different than the typical process in Peace
       Corps since sites are assigned prior to arrival and, sometimes, even before a candidate is
       invited to serve in Mexico. The unique process is due to the MOUs with CONACYT and
       SEMARNAT which support issuing specific visas for Volunteers.
       The selection and invitation process varies slightly depending on the type of assignment.
       Region/Post will implement and execute the strategies below in order to more effectively
       capture Master’s International Invitees’ research interests before site assignment by Post.


       Both Projects



Final Program Evaluation Report: Peace Corps/Mexico                                             33
       Post and Region will include messaging in all Job Specific Requirements (JSRs) that
       requires MI candidates to communicate research interests during the selection and
       invitation process. JSRs serve as the primary mechanism for documenting Post’s request
       for Volunteers to Region, as well as to the recruiting and placement offices of Volunteer
       Recruitment & Selection (VRS). Messaging will be placed under Master’s International
       Information in the Master’s International comments section. Region will work with VRS
       to enhance communication to prospective/current MI candidates regarding this
       information.

       Technology Transfer Project (TT)
       Prospective TT candidates are interviewed by Post prior to invitation to determine if
       qualifications meet the project and/or specific site assignment. Post will ask MI
       candidates during the interview for research interests in order to determine potential
       alignment between the TT project, the potential sites, and the candidate’s research
       interests.

       Environment Project
       Environment assignments focus on improving natural resource management (AA 199)
       and environmental education (AA 104), each of which has a slightly different invitation
       and selection process.

       For Natural Resource Management (NRM) candidates, Post and project partners review a
       candidate’s resume and responses to specific questionnaire prior to the candidate’s
       invitation and site selection. Post has revised the questionnaire to include a request for the
       research interests of MI candidates.

       The Environmental Education candidates are invited to serve in Mexico through the
       standard invitation process. MI candidates will be reminded to highlight their research
       interests in the Aspiration Statement in the close of invitation email sent by the Country
       Desk Officer approximately 4 months prior to departure.

   Documents Submitted:
       Updated JSRs
       Updated Technology Transfer interview questions
       Updated NRM questionnaire
       Updated Close of invitation email template from CDO

Status and Timeline for Completion:        May 23, 2014


Recommendation 5: That the director of programming and training ensure that Volunteers
receive timely feedback from program staff on their work reports.

       Concur




Final Program Evaluation Report: Peace Corps/Mexico                                               34
       Post agrees that staff feedback on Volunteer work reports is an important component of
       providing high quality Volunteer support and thus included a performance goal in the
       FY15-16 IPBS Strategic Plan.

       As noted in the IG report, the new DPT was aware of the lack of timely feedback on
       work reports in the past and had already begun taking measures to ensure that Volunteers
       receive timely and quality feedback from programming staff on their Volunteer Report
       Forms (VRFs).

       Post updated the policy for providing feedback on work reports in December 2013 and
       shared this policy with all currently serving Volunteers as well as the most recent training
       class. In summary, Programming staff have 30 days to provide written feedback on
       reports. In instances where feedback cannot be provided within 30 days, staff may have
       an extension of 15 days, upon informing Volunteers that feedback will be late.

       The DPT will monitor compliance with this policy through the VRT dashboard feature
       that shows progress on VRF feedback completed and sent to Volunteers.

       Documents Submitted:
           Mexico’s IPBS for FY 2015 – 2016: Pages 3 & 14
           Policy on Providing Volunteers Written Feedback on Their Volunteer Report
            Forms
           Email sent to inform Volunteers of new VRF Feedback Policy

       Status and Timeline for Completion:        May 19, 2014




Final Program Evaluation Report: Peace Corps/Mexico                                             35
                         APPENDIX E: OIG COMMENTS
Management concurred with all five recommendations. All five recommendations remain open.
In its response, management described actions it is taking or intends to take to address the issues
that prompted each of our recommendations. OIG will review and consider closing the
recommendations when the documentation reflected in the agency’s response to the preliminary
report is received.

We wish to note that in closing recommendations, we are not certifying that the agency has taken
these actions or that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when we feel it is warranted, we may
conduct a follow-up review to confirm that action has been taken and to evaluate the impact.




Final Program Evaluation Report: Peace Corps/Mexico                                              36
    APPENDIX F: PROGRAM EVALUATION COMPLETION AND
                     OIG CONTACT
PROGRAM                       This program evaluation was conducted under the
EVALUATION                    direction of Assistant Inspector General for Evaluations
                              Jim O’Keefe, by Senior Evaluator Jerry Black. Additional
COMPLETION                    contributions were made by Kaitlyn Large.




                              Jim O’Keefe
                              Assistant Inspector General for Evaluations



OIG CONTACT                   Following issuance of the final report, a stakeholder
                              satisfaction survey will be distributed to agency
                              stakeholders. If you wish to comment on the quality or
                              usefulness of this report to help us improve our products,
                              please contact Assistant Inspector General for Evaluations
                              Jim O’Keefe and at jokeefe@peacecorps.gov, or
                              202.692.2904.




Final Program Evaluation Report: Peace Corps/Mexico                                        37
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                          Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                 OIG@peacecorps.gov
          Online Reporting Tool: PeaceCorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 peacecorps.gov/OIG
            Twitter:               twitter.com/PCOIG
